                                                                                          I
                                                                                          1
                                        NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

                                                                                              I

                                                                                              I
                                                                                              ,I
In accordance with NSF policy,l a University2 notified u s it had conducted a n
inquiry into a n allegation of research misconduct, and it had concluded a n
investigation was warranted. Specifically, it was alleged a post-doctoral researcher          1
(the subject)3 falsified a figure i n a paper4 that cited NSF support.5 The                    I


University's investigation concluded the subject falsified the figure, and the                 1
                                                                                               I
                                                                                               I

University dismissed him.
We agreed with the University t h a t the PI falsified the figure, and we recommended
NSF make a finding of research misconduct against him. NSF agreed and took the
additional recommended actions of (i) debarring the subject for 2 years; (ii)
requiring the subject to retract the publication; and (iii) requiring the subject to
attend an ethics course. NSF also required the subject to (iv) certify for 2 years
after the end of the debarment that any proposals submitted by the subject contain
no plagiarized, falsified, or fabricated material; (v) submit for 2 years after the end
of the debarment the assurances of a university official who h a s reviewed the
subject's NSF proposals and reports and concluded they do not contain any
plagiarized, falsified, or fabricated material.
Accordingly, this case is closed. This memorandum, the Deputy Director's
adjudication, and our Report of Investigation constitute the closeout for this case.




   1 NSF   Grant General Conditions (GC-1) 1.a.

   3   Dr. Hugo Romero

   5   The paper acknowledges support from (redacted).
                             I
                                                                      i
                                 NATIONALSCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

Dr. Hugo Romero
Penn State University
103 Ikenbeny Hall
White Course Drive
University Park, PA 16802


       Re: Debarment

Dear Dr. Romero:

On December 4,2007, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of two years. The Notice sets forth in detail the circumstances
giving rise to NSF7sdecision to propose your debarment. Specifically, NSF indicated in the
Notice that the proposed debarment is based upon your falsification of the results of experiments
conducted on nanorods, and your publication of these results in a scientific journal. In that
Notice, NSF provided you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until February 1,2010. Debarinent precludes you from receiving Federal financial and
non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
subsidies, insurance, payments for specified use, and donation agreements.

In addition,'you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence
                                  -   4


                                      i
    f
I



        on, a grant, contract, or cooperative agreement with any agency of theS~xecutive
                                                                                      Branch of the
        Federal Government.

        Lastly, please note that, in the Notice of Proposed Debarment, NSF also took the following
        actions against you, which continue to remain in effect:

           a   By June 30,2008, you must retract the publication containing the falsified data, and
               certify to NSF's Office of Inspector General ("OIG) that you have done so. The OIG's
               mailing address is 4201 Wilson Boulevard, Arlington, VA 22230.

           a   For two years fiom the end of your debarment period, you are required to certify to NSF's   I
               OIG that any proposals, reports, or papers you submit in connection with NSF-funded
               research do not contain plagiarized, falsified, or fabricated materi.al.
                                                                                                           i
                                                                                                      '

           a   For two years fiom the end of your debarment period, you are required to submit to
               NSF's OIG assurances by a responsible official of your employer that any proposals,
               reports or papers you submit in connection with NSF-fbnded research do not contain
               plagiarized, falsified, or fabricated material.

               You are required to complete an ethics training course on research misconduct, including
               falsification, by September 1,2008. You must certify in writing to the OIG that such
               training has been completed.


        If you have any questions regarding the foregoing, please contact
                 National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
        Room 1265, Arlington, Virginia, 22230.



                                                            Sincerely,



                                                            Kathie L. Olsen
                                                            Deputy Director
                                        .NATIONALSCIENCE FOUNDATION
                                                 4201 WILSON BOULEVARD                      .   .
                                                                                    .   .
                                           '   'ARLINGTON,VIRGINIA 22230                        .   .




           OFFICE OF THE
          DEPUTY DIRECTOR




        CERTIFIED MAIL --RETURN RECEIPT REQUESTED

        Dr. Hugo Romero
        Penn State University
        103 Ikenbeny Hall -
        White Course Drive
        university park, PA 16802


              .   Re: Notice of Proposed Debarment and Notice of Researe Misconduct Determinatiolr           .
        Dear Dr. Romero:

        1n(
                                                                    As documented in the attached
        investigative report prepared by NSF's Wee of Inspector General ("OIG"), you intentionally
        falsified the results,of experiments conducted on nanorods, and published the falsified results in
        this paper.

        In light of your misconducf this.letter serves as formal notice that the National Science
,       ~oundation("NSF") is proposing to debar you fiom directly or indirectly obtaining the benefits
        of Federal grants for a period of two years. During your period of debarment, you will be
        precluded fiom receiving Federal financial and non-financial assistance and benefits under non-
                                                                                                                 .
        procurement Federal programs and activities. In addition, you will be prohibited h m receiving
    .   any Federal contracts .or approved subcontracts under the Federal.Acquisition Regulations
        ("FAR"). Lastly, during your debarment period, you will be barred fiom having supervisory
        responsibility, primary management,' substantive control over, or critical influence on, a grant,
        contract, or cooperative agreement with any agency of the Executive Branch of the Federal
        Government.

        In addition to proposing your debarment, I am requiring that you retract the publication
        containing the falsified figure, and take an ethics course coveringresearch misconduct no later
                                                                                               Page 2
    than September 1,2008. You must certify in writing to the OIG that you have taken both of
    these actions. Furthermore, for two years after the period of debarment expires, I am requiring
    you to submit certifications and assurances by a responsible official of your employer that any
    proposals or reports submitted to NSF do not contain plagiarized, falsified, or fabricated
    material.


    Research Misconduct and Sanctions other than Debarment

    Under IVSFysregulations, "research misconduct" is defined as "fabrication, falsification, or
    plagiarism in proposing or performing research funded by NSF . .." 45 CFR $j 689.1(a). NSF
    defines "falsification" as "manipulating research materials, equipment, or processes, or changing
    or omitting data or results such that the research is not accurately represented in the research
    record." 45 CFR $j 689.1(a)(2). A finding of research misconduct requires that:

           (1) There be a significant departure from accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
               and
           (3) The allegation be proven by a preponderance of evidence.

    45 CFR   5 689.2(c).
    As the OIGYsreport demonstrates, you changed the results of the nanorod experiments that you
    conducted such that the data depicted in figure 5 of the paper did not accurately represent the
    data in the research record. Thus, your conduct unquestionably constitutes falsification. I
    therefore conclude that your actions meet the applicable definition of "research misconduct" set
    forth in NSF's regulations.

    Pursuant to NSF's regulations, the Foundation must also determine whether to make ajnding of
    misconduct based on a preponderance of the evidence. 45 CFR $j 689.2(c). After reviewing the
    Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
    falsification was committed intentionally and constituted a significant departure from accepted
    practices of the relevant research community. I am, therefore, issuing a finding of research
'




    misconduct against you.

    NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be taken in
    response to a finding of misconduct. 45 CFR 5 689.3(a). Group I actions include issuing a letter
    of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
    that an institution or individual obtain special prior approval of particular activities from NSF;
    and requiring that an institutional representative certify as to the accuracy of reports or
    certifications of compliance with particular requirements. 45 CFR tj 689.3(a)(l). Group I1
    actions include award suspension or restrictions on designated activities or expenditures;
                                                                                            Page 3
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR 5 689.3(a)(2). Group I11 actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR $ 689.3(a)(3).

In determining the severity of the sanction to impose for research n~isconduct,I have considered
the seriousness of the misconduct; our determination that it was intentional; the significant
impact your conduct had on the research record; and the determination that it was an isolated
incident. I have also considered other relevant circumstances. 45 CFR 5 689.3(b).

I, therefore, take the following actions:

   e    By June 30, 2007, you must retract the publication containing the falsified data, and
        certify to the OIG that you have done so.

        For two years from the end of your debarment period, you are required to certify to NSF
        that any proposals, reports, or papers you submit in connection with NSF-funded research
        do not contain plagiarized, falsified, or fabricated material.

        For two years from the end of your debarment period, you are required to submit to NSF
        assurances by a responsible official of your enlployer that any proposals or reports you
        submit in connection with NSF-funded research do not contain plagiarized, falsified, or
        fabricated material.

   e.   You are required to complete an ethics training course on research misconduct, including
        falsification, by September 1, 2008. You must certify in writing to the OIG that such
        training has been completed.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b)    Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3)    A willful violation of a statutory or regulatory provision or requirement
               applicable to a public agreement or transaction.
                                                                                           'Page 4
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you intentionally falsified data in
a published paper. Thus, your action supports a cause for debannent under 2 CFR 180.800(b).


Length ofDebnrment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravat~ng
and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of
two pears


Appeal Procedures for Finding of Research Misconduct and Procedures Governing,
Proposed Debarment


Appeal Procedzrres for Finding of Research Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed lo the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.


Procedures Goverrling Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                     Page 5
Should you have any questions about the foregoing, please contact
               , at (703) 292-   .


                                                   Sincerely,



                                                   Kathie L. Olsen
                                                   Deputy Director

Enclosures:
Investigative Report
IVonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
         National Science
            Foundation
    Office of Inspector General




                 Confidential
             Investigation Report
           Case Number A06060026
                            26 July 2007
    This Confidential Investigation Report is the property of the NSF OIG and may be
d                                                                  ation and Privacy Acts,


                                                                        NSF OIG For111 22b (11/06)
                                       Executive Summary

Allegation:       *   Falsification.                                                             ,

University
Action:               A University inquiry and investigation examined a n allegation t h a t
                      a post-doctoral researcher (the subject) falsified figures i n a
                      published paper. The University concluded the subject
              '
                      intentionally falsified the data, a n d it was a significant departure
                      from accepted practices. The subject was dismissed from his group,
                      so the University took no additional action against him.
OIG
Assessment:           We concur with the University t h a t the subject intentionally
                      falsified a figure in a published paper, and the falsification
                      represents a significant departure from accepted practices of his
                      scientific. community.
                      The Act: The subject altered a figure i n such a way a s to
                      misrepresent the data upon which it was based, which is
          .           falsification.                                                ..

                      Intent: We concur with the University t h a t the subject acted
                      intentionally (purposefully). .
                      Standard of Proof: The University and OIG used a preponderance'
                      of the evidence to reach their conclusions.
                      Significant Departure: We concur with the University in
                      concluding the subject's falsification represents a significant
                      departure from community standards.
                      Pattern: None.                          ,   ,


OIG
Recommends: Send the subject a letter of reprimand informing him NSF is
            making a finding of research misconduct;
         ."
                      Debar the subject for 2 years;
                      Require retraction of the paper;
                      Require certification from the subject for 2 years after the
                      debarment t h a t his submissions to NSF are in compliance with
                      NSF's research misconduct policy; a n d
                      Require assurances from a responsible official of the subject's
                      employer for 2 years after the debarment t h a t his submissions to
                      NSF are i n compliance with NSF's research misconduct policy; and
                      Require the subject to attend a n ethics class and provide a copy of
                      the training materials.

.   .
                                                                                         Pg. 1
                                   The University's Actions


     I n accordance with NSF policy,l the University2 notified us it had conducted a n
inquiry into a n allegation of research misconduct, and it had concluded a n
investigation was warranted. The inquiry focused on a figure in a paper3 published
by a post-doctoral researcher (the subject),4 who worked i n a n NSF-supported PI'S
laboratory,5 a n undergraduate student working i n the PI'S laboratory, and the PI.
The paper acknowledged NSF support.6 Specifically, it was alleged one or two
figures in the paper were falsified i n t h a t the existing data had been manipulated to
convey results for which no data were available.


      The investigation committee was charged to investigate the alleged
falsification7 by the subject in the paper.8 I t interviewed the PI, the subject, and a
post-doctoral researcher (PDR) in the PI'S laboratory who initially discovered the
alleged falsification. The committee also reviewed the subject's lab book, the lab
computers, and the software used to plot the figures.
     I n its report, the committee explained that Figure 5 in the paper9 showed a n I-
V plot (current verses voltage) for a particular material nanostructure. The plot
showed a small hysteresis loop. A hysteresis loop occurs when the voltage is
increased from zero and decreased back to zero, but the I-V curve is slightly
different for the increasing and decreasing voltages. This difference i n I-V curves
typically forms a loop, which is denoted a hysteresis loop. The plot also shows small
oscillations on top of the overall curve.
    '
     The committee learned PDR used the same apparatus a s the subject to conduct
a similar experiment, albeit on a different material. PDR was surprised, because
she was using a different material, to notice small oscillations similar to the ones i n
Fig. 5. She discussed it with the PI, and the PI asked the subject some questions
about his data, including a request to provide the raw data for review. When the
subject provided neither the raw data, nor a suitable explanation, the PI asked the
subject to leave her group and asked PDR to review the subject's lab computer files
related to Fig. 5. PDR discovered none of the files on the lab computer showed the
behavior depicted i n Fig. 5 , and she found a command file from his plotting software


  NSF Grant General Conditions (GC-1) 1.a.
2 The University of Pennsylvania.
3 (redacted).
  Dr. Hugo Romero.
5 (redacted).
6 (redacted).
7 We note the investigation committee characterized the research misconduct as fabrication, but we
think it is best characterized as falsification and refer to it as such in this ROI.
8 The investigation report is Appendix (A).
9 The paper is Appendix (B).




                                                                                               Pg. 2
    purportedly showing how Fig. 5 had been created by manipulating existing data.10
    After this discovery, the PI filed a formal complaint of research misconduct against
    the subject.
          During his interview with the committee, the subject agreed the data appeared
    falsified, but he denied any wrongdoing. He told the committee he prepared the
    first draft of the manuscript, and he prepared Fig. 5, but there was nothing unusual
    about Fig. 5; he said other experiments demonstrated similar behavior a s
    illustrated in Fig. 5. The committee noted the paper said similar behavior was
    observed in eight separate samples. Despite the supposed normalcy of the behavior,
    the committee told the subject it had examined the raw data from the computer
    files, and none of the data showed the small hysteresis a s portrayed in the paper.
    Instead, when the'committee plotted the raw data, the plots were characterized a s
    exhibiting large, rather t h a n small, hysteresis behavior.'] The subject suggested
    temperature drifts during the experimental r u n were responsible for the data the
    committee observed, and said he avoided running the experiment under conditions
    where the temperature was a factor.
          The committee arranged to have the subject's lab computer in the interview
    room during the interview. The committee asked the subject to identify the data
    corresponding to small hysteresis, such a s Fig. 5; he was unable to identify a single
    data file showing the behavior as depicted in Fig. 5. The subject alleged the files
    had been deleted from the computer. The committee asked the subject to identify
    any files from his lab book t h a t were not on the computer; he provided a list of files
,   to the committee he said should have been on the computer. The subject said he
    made a backup CD of his data, which he left in the PI'S lab. The committee
    searched the lab, but found no CDs belonging to the subject. I t asked lab members
    if they had seen any CDs, but none had.
          The committee examined the data for temperature dependence and found no
    thermal drift t h a t would explain the large, rather t h a n small, hysteresis observed in
    the raw data. The committee sent the lab's hard drive to a forensic computer
    company for analysis of deleted files. The company provided a-list of recoverable
    and partially recoverable files, and none corresponded to those the subject identified
    a s deleted. Furthermore, the committee noted the subject kept a detailed lab book
    and only two files listed in it were not found on the lab computer.
          Based on the evidence, the committee concluded the subject was responsible for
    all the I-V data, he wrote the first drafts of the paper, and he prepared Fig. 5. The
    committee did not observe any of the data on the lab computer exhibiting the
    behavior depicted in Fig. 5, although the paper said eight samples showed similar ,
    behavior. The command file of the plotting software showed how the d a t a were

       A graphical representation of the e d ~ t e dcommand file is Appendix (C). I t shows how the data files
    were manipulated by omitting (deleting) some data and duplicating other data to create Fig. 5. The
    command file of the plotting software (IGOR Pro) showing the edited construction is available for
    review.
    1' Appendix (D) shows a n example of plotting the raw data from the lab computer.




                                                                                                         Pg. 3
*   manipulated to create Fig. 5. The committee found no evidence in the subject's lab
    book for the data he said he collected t h a t exhibited the behavior illustrated by Fig.
    5. The committee did not find it'credible t h a t a person, other t h a n the subject,
    would selectively delete only the specific files the subject said he needed to support
    his claim. Furthermore, a computer recovery of the lab's hard drive failed to find
    evidence of files the subject said were deleted. Given these facts, the committee
    found a preponderance of the evidence supports the conclusion the subject falsified
    Fig. 5, it was done intentionally, and the falsification was a significant departure
    from the accepted practices in the physics community.
         The subject responded to the committee's r e p o r t . l W e denied he had any role
    in the falsification of Fig. 5. He objected to the committee focusing its efforts on
    him, rather t h a n a broader investigation. He said the committee misinterpreted the
    results of Fig. 5 and therefore drew incorrect conclusions during the investigation.
    He said a different parameter other t h a n temperature (the voltage sweep rate)
    could lead to the curves observed by the committee. He said the committee did not
    seriously address his concern about deleted files not listed in his lab book. Finally,
    he disagreed with the committee t h a t the falsification was significant and
    invalidated the conclusions of the paper.
         In response to the subject's rebuttal,l3 the committee thought many of the
    subject's comments reflected his disagreement with the committee's conclusions,
    without providing any evidence or identifying facts inconsistent with its analysis.
    Regarding the overarching concern about Fig. 5, the committee concluded there was
    no evidence to support the subject's claims t h a t (a) Fig. 5 in the paper was
    supported by raw data, and (b) the small hysteresis behavior of Fig. 5 was typical.
    Furthermore, the committee was skeptical of the subject's new explanation of the
    observed large hysteresis being a result of the voltage sweep rate, particularly
    because the paper states the shape of the I-V curve is independent of the voltage
    sweep rate. The committee also re-interviewed the PI who said in her discussions
    with the subject during the preparation of the paper, he told her the small
    oscillations were independent of voltage sweep rate. Thus, the subject's new
    explanation is inconsistent with his previous argument, his explanation to the PI,
    and the paper he wrote. Moreover, none of the d a t a (at any temperature or voltage
    sweep rate) show the same behavior a s depicted i n Fig. 5, and the software plotting
    program shows how the data were manipulated. '
          The committee reiterated it found the subject's argument about file deletions
    specious a s i t "presupposes the existence of someone with knowledge of the
    existence of data not recorded in his notebook, a sufficient familiarity with his
    naming scheme,experimental process, 'and the paper to selectively delete only those
    files that support the [ ] behavior shown in Figure 5 while leaving a large number of



    12   The subject's response is Appendix (E).
    13   The committee's rebuttal is Appendix (F).


                                                                                         Pg. 4
files showing behavior inconsistent with the published figure."l4 The committee
reaffirmed its conclusion t h a t the subject falsified Fig. 5 of the paper. ,




     The Dean15 reviewed and accepted the committee's finding based on the
preponderance of the evidence. The Vice Provost for Research also reviewed the
documentation and accepted the finding of the committee.16 .As noted earlier, the
subject is no longer a t the University, so i t could take no action.
                                       OIG's Assessment
      We accept the University's report a s accurate and complete, and we conclude
the University followed reasonable procedures in its investigation. We found the
Committee was thoughtful in assessing the evidence and taking the steps it did in
trying to verify the subject's claims. The committee interviewed the authors of the
paper, lab personnel, the PI, and the subject. I t reviewed all the data on the lab
computer and sent i t to a forensic company to look for evidence t h a t would support
the subject's statements that: (a) data of the type displayed in Fig. 5 was not
atypical, and (b) someone had deleted his files demonstrating (a). I t searched the
PI'S lab where the subject claimed he left backup CDs and interviewed people there
in a n attempt to locate the CDs. The committee discovered no evidence t h a t
supported the subject's assertion t h a t he was not responsible for the falsification.
      The University concluded Fig. 5 was falsified. Indeed, the discovery of the
altered command file for the plotting software, which shows how the existing data
files were manipulated to create Fig. 5, l6aves little doubt t h a t Fig. 5 was falsified.
The question before the committee was to determine who falsified the figure. The
subject: (a) conducted the experiment and collected the data, (b) wrote the early
drafts of the paper, and (c) created Fig. 5 . The committee, through the actions
described in the previous paragraph, found no evidence to support any of the
subject's denials. I n particular, we agree with the committee t h a t someone else
selectively deleting specific data files from the subject's folder requires a faAiliarity
with the subject's d a t a files and lab book. Also, assuming this unknown person
deleted those data, with no apparent motive for doing so, while simultaneously
creating the command file for the plotting software requires a n implausible
suspension of disbelief. Accordingly, we concur with the University t h a t the subject
falsified .Fig. 5 of the paper.


        The University concluded a preponderance of evidence proved t h e subject
manipulated data to produce a figure t h a t did not accurately represent the results
of a n experiment. This act meets the definition of falsification. We concur with the        ,.
University the subject falsified Fig. 5 in the paper.

14 Appendix (F), p. 5.
15 (redacted).
16 Vice Provost (redacted) adjudication is Appendix (G).




                                                                                      Pg. 5       I
                                           INTENT
       We concur with the University t h a t the subject intentionally falsified Fig. 5.
As described above, Figure 5 was not a straightforward plot of the existing data.
The subject h a d been in discussions with the PI about the properties and shape of
the I-V curve. The subject would have known the shape of the small hysteresis I-V
curve to create, and the data files were manipulated by carefully coping, deleting,
and pasting existing files to give a curve with the desired shape. We conclude a
preponderance of evidence supports our conclusion t h a t these actions demonstrate
the subject's intentional behavior in falsifying Fig. 5.


        We concur with the University t h a t a preponderance of evidence proves the
subject's action is a significant departure from accepted practices. We concluded he
acted intentionally in manipulating the data. Thus, we conclude-the subject's action
is falsification and constitutes research misconduct.
                            OIG's ~ e c o m m e n d e dDisposition     ,

      I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; whether it was a n isolated event or part of a pattern; its
impact on the research record; and other relevant circumstances.l~


      Falsification of data, and figures t h a t illustrate t h a t data, is, by its nature,
serious. The cdmmunity relies on scientists to accurately represent their data, so
other research may be built on existing research. The committee concluded this
falsification is more serious because it undermines the conclusions of the paper. We
believe the subject's falsification is a significant departure irrespective of its effects
on the conclusions of the paper; we agree with the committee the falsification is
made more serious because of impact of the falsification on the research record (see
below).
                                           Pattern
        Neither our office, nor the University, uncovered evidence of a pattern of
falsification in the materials reviewed.
                               Inzpact on the Research Record
     The falsified figure was presented a t two conferences and published i n a peer-
reviewed journal. Thus, the subject misled not only his colleagues, but the larger
scientific community. The committee did not recommend retraction of the paper.
                                                                                           '


Therefore, the research record needs to be corrected.
                                                            . -



17   45 CFR   5 689.3(b).

                                                                                        Pg. 6
                                          Mitigating Factors
         The subject cooperated fully with the University inquiry and investigation in
t h a t he agreed to t u r n over his lab book and personal laptop to the committee for
evaluation and agreed to return to the University for interviews.
                                          Recommendations
        We recommend NSF send a letter of reprimand to the subject informing him he
h a s been found to have committed falsification, hence research misconduct.
Additionally, we recommend debarring the subject for 2 years and require
certifications from the subject for 2 years after the debarment t h a t his submissions
to NSF are in compliance with NSF's research misconduct policy. We recommend
NSF require the subject's supervisor provide assurances for 2 years after the
debarment t h a t the subject's subn~issions.to NSF are in compliance with NSF's
research misconduct policy. We recommend NSF require the retraction of the
paper, and the subject to provide proof of the retraction. I n addition, we recommend
t h a t the subject be required to attend a n ethics class and provide a copy of the
training material. The recommended certifications, assurances, proof of retraction,
and training material should be sent to the Associate Inspector General of
Investigations in OIG.
                                        Subiect's Response
     The subject expressed disappointment with the process and conclusions of the
University, and correspondingly, our investigation.18 He said he had no role in the
research misconduct and was caught up in the legal machinery of the University
wherein he could not properly be defended. He did not have a specific criticism of
the report since i t reflects the information provided to u s by the University.
      He pointed out some details concerning the location of the files on the computer
were incorrect, which we have corrected. Related to this point, he again points out
his lab book was not secured and anyone could have looked a t i t to determine which
files to delete and alter the data. He also noted the PI regularly backed up the
computers, even apart from his own cds, and the committee should have found t h a t
data.




18   The subject's response is Appendix (G).


                                                                                   Pg. 7
